                               MEMORANDUM

-   ~-~   -   .   .   .   ~.   Date:   .        April 9,1999
                                           ...-... ~ .   . .. .   ,   .
                                                                          ".   .   .



                               To:              File No. I98090029

                               From:                                                   dent Trainee   m
                               Through:                                                r General for Investigations

                               Re:              Case Close-Out


                               Background

                               Audit referred a potential duplicate travel case to us involving
                               appeared thaF         a      d been reimbursed by the NSF- sponsore
                               for two airline tlc ets which had also been billed to his NSF grant.
                                                                                       .*
                               Investigation




                               checks which were issued tom a n d

                               Among the documentation received from                                   was an invoice paid
                               to -travel              in the amount                                   tickets. We obtained
                  a copy of the cancelled check w        h     i   c    a     d remitted in payment for this
                  invoice.

                   We i n t e r v i e w e i a telephone on February 2, 1999. He stated that he is unable
                   to recall who purchased the airline tickets, but that he does not believe that they were
                   paid for by his grant funds. He recalled requesting reimbursement for travel fro-
                 u               t stated that he can not remember if airline tickets were part of that claim.
--                      -. ----- - --




                                                                                                                    -
     -   .   .               ~.-   .. .,--.
                                          -
                                            - - -                             .   _ _         _ _ ___ _      _ - _ --_
                                                                                                             ,.-:
                                                                                                                         -. -- .   ..   . ... .. .   -
                                                                                                                                                     .


                   Findings

                     The cancelled checks from d i c a t e t h a m n d - e r e
                     reimbursed for airline tickets which were in fact purchased by his grant funds -a
                     e                         r                        e reimbursed
                                                                                 ,   b                     the
                     total amount of $444.00. The cancelled check issued to                 ndicates that she
                                        sah- t
                     signed her check over                                 r   e     p    r
                     $ 4 4 4 . 0 0 . f the Division of Financial Management has confirmed that
                 a-s               sent a check for this amount to NSF.
